U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Rd Legal Funding, LLC, et al. v. Consumer Financial Protection Bureau, et al.
S.Ct. No. 20-1758
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 14,
2021, and placed on the docket on June 16, 2021. The government’s response is due on July 16,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1758
RD LEGAL FUNDING, LLC, ET AL.
CFPB, ET AL.

JEFFREY M. HAMMER
CALDWELL HAMMER LLP
633 WEST FIFTH STREET
SUITE 1710
LOS ANGELES, CA 90071
213-712-1390
ANNE MARGARET VOIGTS
KING & SPALDING LLP
633 WEST FIFTH STREET
SUITE 1600
LOS ANGELES, CA 90071
213-443-4355
AVOIGTS@KSLAW.COM

